       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                Grants for Waste Disposal Projects,
                     Department of Public Works,
                 Government of the Virgin Islands




Report No. V-IN-VIS-0072-2004             May 2005
                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                   1849 C Street, NW – MS 5341
                                      Washington, DC 20240



                                                                     May 11, 2005


Memorandum

To:       David Cohen
          Deputy Assistant Secretary for Insular Affairs

From:     Roger La Rouche
          Acting Assistant Inspector General for Audits

Subject: Final Audit Report “Grants for Waste Disposal Projects, Department of Public Works,
         Government of the Virgin Islands” (Report No. V-IN-VIS-0072-2004)

       The attached report presents the result of our audit of Office of Insular Affairs grants to
the Government of the Virgin Islands for various waste disposal projects in the Virgin Islands.
The objective of the audit was to determine whether the Government of the Virgin Islands
administered the grants in accordance with the terms and conditions of the grant awards.

       The legislation, as amended (5 U.S.C. app. 3), creating the Office of Inspector General
requires that we report to Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.
Therefore, this report will be included in the next semiannual report.

        Please provide a response to this report by June 27, 2005. The response should provide
the information requested in Appendix 4 and should be addressed to me at the above address,
with a copy to our Caribbean Field Office, Ron deLugo Federal Building – Room 207,
St. Thomas, VI 00802.

cc: Audit Liaison Office, Office of Insular Affairs
    Governor of the Virgin Islands
    Commissioner, Department of Public Works
    Executive Director, Virgin Islands Waste Management Authority
    Director, Virgin Islands Office of Management and Budget
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION       Objective, Scope and Methodology.............................................. 2
                   Prior Audit Coverage .................................................................... 2


                   Overview.......................................................................................   3
RESULTS OF AUDIT   Salary Charges ..............................................................................     3
                   Procurement ..................................................................................    4
                   Equipment Controls ......................................................................         5
                   Drawdowns ...................................................................................     6
                   Recording Grant Reimbursements................................................                    6


                   To the Deputy Assistant Secretary for Insular Affairs.................. 8
RECOMMENDATIONS


                   1.   Prior Audit Coverage.............................................................. 10
APPENDICES         2.   Monetary Impact..................................................................... 11
                   3.   Responses to Draft Report ...................................................... 12
                   4.   Status of Recommendations ................................................... 16




                                              i
INTRODUCTION
             During the 17-year period of 1984 through 2001, the U.S. District
BACKGROUND   Court for the Virgin Islands, on behalf of the U.S. Environmental
             Protection Agency (EPA), filed four orders of consent and two
             civil action orders against the Government of the Virgin Islands for
             several violations of EPA requirements regarding solid waste and
             wastewater systems. To help the Virgin Islands address some of
             its solid waste and wastewater problems, the Office of Insular
             Affairs, U.S. Department of the Interior, awarded three grants
             totaling $11.4 million to the Government of the Virgin Islands. As
             of August 30, 2004, expenditures against the grants totaled about
             $4 million. Details follow:

                   Grant                                 Award
                  Number          Award Date            Amount              Expended
                 GR000046         12/16/1999           $5,420,000           $2,604,272
                 GR370087         04/16/2003              993,000              742,768
                 GR470070         12/01/2003            5,000,000              659,043

                  Totals                             $11,413,000            $4,006,083

             Through October 2004, the grants were administered by the
             Department of Public Works, which was responsible for (1)
             repairing, maintaining, and operating the sewage disposal system
             in the Virgin Islands; (2) enforcing and administering all
             regulations and laws covering the use of the sewage disposal
             system; (3) collecting and disposing of solid waste; and (4)
             managing public sanitary landfill sites.

             On January 23, 2004, the Virgin Islands Waste Management
             Authority was created by Act No. 6638.1 This autonomous entity,
             governed by a seven member Board of Directors, assumed all the
             powers, duties, and responsibilities pertaining to solid waste and
             wastewater management services in the Virgin Islands. As of
             October 2004, the Waste Management Authority’s solid waste and
             wastewater units were being staffed by employees from the
             Department of Public Works and by new hires.




             1
               Because the Department of Public Works had responsibility for waste disposal
             programs during most of the time period covered by our audit, we refer to the
             Department of Public Works, instead of the Waste Management Authority,
             throughout the body of this report.


                                  1
                   The objective of the audit was to determine whether the
OBJECTIVE, SCOPE   Government of the Virgin Islands administered the grants in
AND METHODOLOGY    accordance with the terms and conditions of the grant awards.

                   To accomplish the audit objective, we reviewed grant-related
                   documents located at the Departments of Public Works, Property
                   and Procurement, and Finance, and the Virgin Islands Office of
                   Management and Budget. We also interviewed appropriate
                   officials at these organizations. The scope of the audit included
                   grant-related transactions that occurred during fiscal years 2002
                   through 2004.

                   Our audit was conducted in accordance with the “Government
                   Auditing Standards,” issued by the Comptroller General of the
                   United States. Accordingly, we included such tests of records and
                   other auditing procedures that were considered necessary under the
                   circumstances. The “Standards” require that we obtain sufficient,
                   competent, and relevant evidence to afford a reasonable basis for
                   our findings and conclusions.

                   As a part of our audit, we evaluated the internal controls related to
                   procurement practices, grant administration, inventory control, and
                   drawdown (reimbursement) processing. Internal control
                   weaknesses in these areas are discussed in the Results of Audit
                   section of the report. The recommendations, if implemented,
                   should improve the internal controls in these areas.

                   In March 2003, the Office of Inspector General issued an audit
PRIOR AUDIT        report on grants for solid waste and wastewater disposal projects.
COVERAGE           Although all six recommendations contained in the prior report
                   were considered to be implemented as a result of supplemental
                   information provided by Public Works, our current audit disclosed
                   problems similar to those included in the prior audit (see
                   Appendix 1).




                                      2
RESULTS OF AUDIT
                     We found that expenditures by the Department of Public Works
OVERVIEW             (Public Works), totaling approximately $4 million, were generally
                     made for authorized purposes as specified in the grant agreements.
                     We also found:

                     ¾ salary costs of $4,401 which were improperly charged to grant
                       no. GR000046,

                     ¾ inadequately documented procurement actions,

                     ¾ minor weaknesses in controls over equipment purchased with
                       grant funds,

                     ¾ untimely processing of grant drawdown requests to the Office
                       of Insular Affairs, and

                     ¾ untimely recording of grant reimbursements to the appropriate
                       Government Financial Management System accounts.

Salary Overcharges   The terms and conditions of grant number GR000046 allowed
                     Public Works to request drawdowns for reimbursement of actual or
                     accrued expenditures. These expenditures included the purchase
                     of equipment and supplies, contractual project costs, and partial or
                     total compensation and benefits of eight employees. A Notice of
                     Personnel Action (NOPA) for each employee specified the
                     percentage of total compensation that should be charged to the
                     Office of Insular Affairs grant. Each biweekly pay period, each
                     employee prepared a timesheet, which was processed for the
                     Department of Finance to prepare the biweekly payroll registers
                     and payroll checks. However, Public Works used these documents
                     to prepare and process grant reimbursements for salary costs
                     without reviewing the employees’ NOPAs to determine the proper
                     percentage that should be reimbursed from the grants. As a result,
                     for the pay periods ended May 18, June 29, October 19,
                     November 20, 2002, and January 25, 2003, salary costs for one
                     employee were reimbursed from grant funds at the rate of
                     100 percent, although the employee’s NOPA stated that
                     reimbursement should be at 64 percent of salary costs. Therefore,
                     a total of $4,401 in payroll charges were incorrectly reimbursed
                     from grant funds.

                     Subsequent to the February 16, 2005 exit conference, the
                     Commissioner of Public Works provided documentation which



                                       3
              acknowledged the $4,401 salary overpayment and stated that an
              appropriate adjustment would be processed to reverse the
              overcharge to the Office of Insular Affairs grant.

Procurement   The grants partially funded ten contracts totaling $54.9 million.
              The contracts were awarded for wastewater and solid waste
              projects that included scrap metal processing, Anguilla landfill
              studies, architectural and engineering plans for new wastewater
              treatment plants, and maintenance of treatment plants.




              Figure 1. Scrap metal processor at work at Bovoni Landfill, St. Thomas.
              (Office of Inspector General Photo)

              We reviewed six contracts totaling approximately $54.4 million
              which were awarded during a period when Public Works was
              operating under emergency procurement procedures. For
              purchases under emergency conditions, the Department of Property
              and Procurement’s Procurement Manual states that the user agency
              must (1) provide a minimum of three independent quotes to justify
              that competition was obtained, (2) submit a justification letter
              signed by the commissioner or agency head describing the
              selection process and, (3) furnish a copy of all pertinent
              documentation to Property and Procurement’s Division of
              Procurement.

              While the six contracts we reviewed were awarded during a period
              when Public Works was operating under emergency procurement
              procedures, the Department of Property and Procurement, which
              executed the procurements, used normal procurement procedures.


                                   4
                               In that regard, we found that four contracts totaling $54.2 million
                               were awarded in accordance to the requirements. However, for
                               two contracts totaling $395,000, we were unable to determine
                               whether proper procurement procedures were used because either
                               the contract file was incomplete (HTA Caribbean contract no. l) or
                               the contract file was not available during our audit (Landfill
                               Technologies Corp. contract). Our review results were as follows:

                                                                                 Competitive Supporting
            Contractor                 Scope of Work              Amount          Bidding?        Documents?
   HTA Caribbean (no. 1)        Provide negotiation assistance     $195,000         UTD *             No
   HTA Caribbean (no. 2)       Amendment to prior contract         $193,000          NA **            Yes
   Landfill Technologies Corp. Environmental studies               $200,000         UTD *             No
   V.I. Recycling Company       Scrap metal processing           $1,723,960         Yes               Yes
   VWNA Caribbean (no. 1)       Design, build, operate plant    $26,644,253         Yes               Yes
   VWNA Caribbean (no. 2)       Design, build, operate plant    $25,640,753         Yes               Yes
   Notes: * UTD – Unable to Determine: Supporting procurement documents were incomplete or unavailable.
          ** NA – Not Applicable: This was a contract amendment to extend the original contract term.

                               Subsequent to the February 16, 2005 exit conference, the
                               Commissioner of Public Works provided us with copies of the two
                               contracts as additional support. However, we had already obtained
                               copies of the contracts during our audit. What was lacking was
                               evidence of the basis for selecting the contractors.

Equipment Controls             During the period of February 2001 through November 2003,
                               Public Works purchased 99 equipment items at a cost of
                               approximately $1 million. During our review and physical
                               inspection of 48 items costing a total of $156,763, we were unable
                               to locate 4 items valued at $8,765. The Department of Property
                               and Procurement’s Property Manual states that each department or
                               agency shall conduct a complete physical inventory of all
                               capitalized equipment2 at least once biennially. Although Public
                               Works personnel updated the last inventory list and tagged all
                               newly-purchased items, they did not perform a complete physical
                               inventory of all equipment. Our review disclosed that a computer
                               printer listed as being located in St. Thomas had been moved to
                               Public Works’ St. Croix office, and another printer included on the
                               list without location information could not be located at the
                               St. Thomas office. We also could not specifically identify two
                               garbage collection bins on St. Thomas because required
                               Government property tags had not been affixed to the bins and the
                               bins’ serial numbers were not listed on the inventory list.


                               2
                                Equipment is considered to be capitalized if it has a purchase price of $5,000
                               or more or consists of sensitive items, such as computer equipment.


                                                     5
                  Subsequent to the February 16, 2005 exit conference, the
                  Commissioner of Public Works provided us with information
                  indicating that the unit costs of the two garbage collection bins
                  were below the $5,000 capitalization threshold and that the bins
                  had been acquired prior to the issuance of the updated property
                  capitalization guidelines. The Commissioner stated that Public
                  Works would follow-up on the property control issues we
                  identified.

Drawdowns         To receive reimbursement for approved grant expenditures, Public
                  Works must drawdown funds from the Office of Insular Affairs
                  grants. Public Works officials prepared the drawdown requests
                  and submitted them to Management and Budget for transmittal to
                  the Office of Insular Affairs. During the period of July 2002
                  through July 2004, Public Works prepared and submitted to
                  Management and Budget a total of 31 drawdown requests.
                  However, Management and Budget did not transmit all requests to
                  the Office of Insular Affairs in a timely manner. As a result,
                  drawdown requests were delayed from 5 to 201 days, or an average
                  of 64 days. For example, Public Works prepared a drawdown
                  request for $30,488 on October 24, 2003, but Management and
                  Budget did not submit the request to the Office of Insular Affairs
                  until August 30, 2004.

Recording Grant   Based on approved drawdown requests, the Office of Insular
Reimbursements    Affairs electronically transfers grant funds to the Government’s
                  Federal Funds Depository Account at a St. Thomas bank. Office
                  of Insular Affairs personnel also inform Public Works when the
                  transfers occur. Using this information, Public Works personnel
                  are suppose to prepare Statements of Remittance3 and submit them
                  to the Department of Finance. The Statements of Remittance are
                  used to record the deposit of grant funds in the appropriate cost
                  center accounts in the Government’s Financial Management
                  System.

                  Despite this process, we found that grant funds totaling
                  $2.5 million transferred to the bank account during the period of
                  January 2002 to August 2004, had not been recorded in the
                  appropriate Financial Management System accounts. This
                  occurred because the Department of Finance had not
                  communicated all of the required account codes and other pertinent
                  information to Management and Budget when it transferred the
                  function to Management and Budget. This delayed the processing

                  3
                    A Statement of Remittance is a form used as the source document for
                  recording the receipt and deposit of revenues into the appropriate account in the
                  Government of the Virgin Islands’ Financial Management System.


                                        6
of Statements of Remittance until September 22, 2004, when
Office of Management and Budget personnel tried to input the
information from six Statements of Remittance totaling $501,451.
The System accepted only two transactions, totaling $77,618. As a
result, grant drawdowns totaling about $2.5 million still had not
been recorded in the Financial Management System as of
September 2004, and local funds used for waste disposal projects
had not been reimbursed from the approved grant funds.




                 7
RECOMMENDATIONS
                  We recommend that the Deputy Assistant Secretary for Insular
TO THE DEPUTY     Affairs ensure that the Government of the Virgin Islands:
ASSISTANT
SECRETARY FOR        1. Follows appropriate procurement requirements when using
INSULAR AFFAIRS   Office of Insular Affairs (OIA) grant funds.

                     2. Institutes adequate controls over payroll charges before
                  requesting reimbursement for such charges from OIA grant funds.

                      3. Reimburses the OIA for $4,401 that was over-reimbursed
                  for payroll charges of a Public Works employee.

                      4. Follows requirements for biennial physical inventories of
                  equipment purchased with OIA grant funds and reconciles the
                  results with the property control records.

                      5. Institutes adequate controls to ensure that OIA grant
                  drawdown requests are promptly processed, submitted, and
                  recorded.

                  We received responses (see Appendix 3) to the draft report from
OIA AND PUBLIC    OIA and Public Works. The April 18, 2005 response from OIA
WORKS RESPONSES   concurred with the recommendations and stated that OIA would
                  require the Government of the Virgin Islands to provide supporting
                  documentation regarding the apparent overcharge of $4,401 in
                  salary costs to OIA grant funds. The response also indicated that
                  OIA would ensure that grant funds “are being used in compliance
                  with applicable laws and regulations.” The April 15, 2005
                  response from Public Works included the following information
                  regarding the five recommendations:

                  ¾ Recommendation 1: Public Works stated that the
                    completeness of procurement files and documentation of
                    compliance with procurement requirements was the
                    responsibility of the Department of Property and Procurement.

                  ¾ Recommendations 2 and 3: Public Works concurred that an
                    overcharge of $4,401 was made, but countered that its review
                    also disclosed an undercharge of $14,710 related to another
                    employee. Therefore, Public Works would request a
                    drawdown from OIA of the $10,309 difference. Public Works
                    also stated that it would ensure that proper controls were in
                    place for future requests for reimbursement of payroll charges.



                                    8
¾ Recommendation 4: Public Works concurred that some
  OIA-funded equipment was not properly recorded in the
  property control records and stated that corrective actions
  would be taken during the next physical inventory cycle.

¾ Recommendation 5: Public Works stated that the timeliness of
  the processing and recording of grant drawdowns was the
  responsibility of the Virgin Islands Office of Management and
  Budget.

Based on the OIA response, we classified Recommendations 1, 2,
4, and 5 as management concurs, additional information needed,
and Recommendation 3 as resolved but not implemented.
Appendix 4 describes the information needed to close out the
recommendations.




                  9
APPENDIX 1 - PRIOR AUDIT COVERAGE
                  The March 2003 audit report “Grants for Solid Waste and
OFFICE OF         Wastewater Disposal Projects, Department of Public Works,
INSPECTOR         Government of the Virgin Islands” (No. 2003-I-0012) stated that
GENERAL REPORTS   Public Works did not (1) always submit required financial and
                  progress reports to the Office of Insular Affairs and those that were
                  submitted were late, (2) adequately document the applicability of
                  public exigency exemptions to contracts that were awarded
                  non-competitively, (3) ensure that property management records
                  were sufficient to account for and safeguard equipment purchased
                  with grant funds, and (4) promptly submit drawdown requests to
                  the grantor agency and record all drawdown requests to the
                  appropriate project accounts.

                  Although all six recommendations contained in the prior report
                  were considered to be implemented as a result of supplemental
                  information provided by Public Works, our current audit found
                  problems similar to those disclosed in the prior audit.




                                    10
APPENDIX 2 - MONETARY IMPACT

FINDING AREA
                                           Cost Exception

Over-Reimbursement of
  Payroll Costs                               $4,401*




 __________
 * Amount represents Federal funds.




                                      11
APPENDIX 3 - RESPONSES TO DRAFT REPORT




                     12
     Appendix 3
     Page 2 of 4




13
     Appendix 3
     Page 3 of 4




14
     Appendix 3
     Page 4 of 4




15
APPENDIX 4 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference              Status                       Action Required

     1, 2, 4, and 5      Management           Provide specific information regarding the
                         concurs,             steps to be taken to ensure compliance by the
                         additional           Government of the Virgin Islands with grant
                         information          administrative requirements.
                         needed.

           3             Resolved, not        Provide documentation showing the final
                         implemented.         disposition of the $4,401 in apparent payroll
                                              overcharges.




                                         16
